                 OIG
                 OFFICE OF INSPECTOR GENERAL

                                                         Catalyst for Improving the Environment


Audit Report




              Costs Claimed by Georgia
              Department of Natural Resources
              Under EPA Assistance Agreement
              No. VC984299-98

              Report No. 2003-4-00101


              June 26, 2003

This audit report contains findings that describe problems the Office of Inspector General (OIG)
has identified and corrective actions the OIG recommends. The report represents the opinion of
the OIG and findings contained in this report do not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.
Report Contributors:                      Keith Reichard
                                          Robert Evans
                                          Kelly Bonnette




Abbreviations

CFR             Code of Federal Regulations
CERCLA          Comprehensive Environmental Response, Compensation and Liability Act
EPA             Environmental Protection Agency
FSR             Financial Status Report
OIG             Office of Inspector General
OMB             Office of Management and Budget
State           Georgia Department of Natural Resources
                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                  WASHINGTON, D.C. 20460


                                                                                       OFFICE OF
                                                                                  INSPECTOR GENERAL




                                          June 26, 2003

MEMORANDUM

SUBJECT:       Report No. 2003-4-00101
               Costs Claimed by Georgia Department of Natural Resources
               Under EPA Assistance Agreement No. VC984299-98


FROM:          Michael A. Rickey /s/
               Director, Assistance Agreement Audits

TO:            Russell L. Wright
               Assistant Regional Administrator for the
                Office of Policy and Management, Region 4

We have examined the costs claimed by the Georgia Department of Natural Resources (State)
under Environmental Protection Agency (EPA) assistance agreement No. VC984299-98. This
Agreement was authorized under Section 104 of the Comprehensive Environmental Response,
Compensation and Liability Act (CERCLA) to provide financial support for the Superfund Core
and Voluntary Cleanup Programs.

We questioned $16,559 of the total Federal share claimed of $3,930,101 as ineligible, because
the State did not comply with the Federal rules, regulations, and terms of the subject assistance
agreement.

This audit report contains findings that describe problems the Office of Inspector General (OIG)
has identified and corrective actions the OIG recommends. The report represents the opinion of
the OIG, and findings contained in this report do not necessarily represent the final EPA
position. The OIG has no objection to the release of this report to any member of the public
upon request.

We held an exit conference on March 28, 2003, at the conclusion of field work, and informed the
State of the preliminary results of our audit. On April 28, 2003, we issued a draft report to the
State and Region 4 for comments. On June 12, 2003, the State provided comments on the draft
report. The State provided adequate documentation to support questioned travel costs of $1,266.
Thus, the $1,266 amount has been removed from the report. Further, the State indicated that it
had no comments on the questioned ineligible costs, and did not comment on the lack of physical
inventories of its CERCLA-funded property. The State also provided comments on actions
taken to improve the performance reports since the draft report was issued. The State’s response
is included in the report as Appendix C. The State declined a final exit conference after the
issuance of the draft report.
Action Required

In accordance with EPA Manual 2750, EPA is required to provide this office with a
proposed management decision specifying the Agency’s position on all findings and
recommendations in this report. The draft management decision is due within 120 days of the
date of this transmittal memorandum.

If you have questions concerning this report, please contact Keith Reichard, assignment
manager, at (312) 886-3045.




                                               2
                                   Table of Contents
Independent Accountant’s Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

Results of Audit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7



 Appendices
         A         Details of Results of Audit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

         B         Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

         C         State Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

         D         Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
                   Independent Accountant’s Report
We have examined the total costs claimed by the Georgia Department of Natural Resources
(State) under the Environmental Protection Agency (EPA) financial assistance agreement, as
shown below:

                                         Financial Status Report
                                                             Cumulative
          Assistance           Date            Period       Total Outlays
         Agreement No.       Submitted         Ending         Claimed        Federal Share

          VC984299-98         12/17/02         9/30/02        $4,366,781       $3,930,101


The State certified that the outlays reported on the Financial Status Report (Standard Form
269A) (FSR) were correct and for the purposes set forth in the Agreement. The preparation and
certification of each claim was the responsibility of the State. Our responsibility is to express an
opinion on the claim based on our examination.

Our examination was conducted in accordance with the Government Auditing Standards, issued
by the Comptroller General of the United States, and the attestation standards established by the
American Institute of Certified Public Accountants and, accordingly, included examining, on a
test basis, evidence supporting the claimed costs and performing such other procedures as we
considered necessary in the circumstances (see Appendix B for details). We believe that our
examination provides a reasonable basis for our opinion.

In our opinion, except for items of questioned costs (see Appendix A), the certified costs referred
to above present fairly, in all material respects, the allowable costs incurred in accordance with
the criteria set forth in the Agreement. Therefore, we consider the claims to be acceptable as a
basis to determine reasonable and allowable costs incurred in the performance of the Agreement.
We also found two areas of regulatory noncompliance during our examination. The “Results of
Audit” section, as well as Appendix A, provide details of our examination and conclusions.



                                                              Keith Reichard /s/

                                                              Assignment Manager
                                                              Field Work End: March 28, 2003




                                                  1
2
                                       Background
On September 23, 1997, EPA awarded Assistance Agreement No. VC984299-98 to the State.
The following table provides some basic information about the authorized project period and the
funds awarded under the Agreement covered by this audit.

          Assistance          EPA           Local         Total              Project
         Agreement No.       Share *        Share         Costs              Period

          VC984299-98       $4,745,965     $560,662     $5,306,627    10/01/97 - 09/30/03

        * The EPA share was 90 percent of total costs up to $4,745,965.


This Agreement was authorized under Section 104 of the Comprehensive Environmental
Response, Compensation and Liability Act (CERCLA) to provide financial support for the
following two programs:

       Superfund Core Program: The purpose of this program is to enable the State to
       complete development of a regulatory structure, streamline its environmental oversight
       and permitting functions, and refine its site tracking and assessment capabilities.

       Voluntary Cleanup Program: The purpose of this program is to develop the capacity
       to oversee and support voluntary cleanup projects, as opposed to enforcement or
       compulsory cleanups. Work products include developing authorizing legislation and
       preparation of a manual for implementation of the program. EPA piggy-backed this
       program with the core program for only 3 years of the grant period (fiscal 1999 through
       2001). EPA then awarded the State a separate agreement to fund future Voluntary
       Cleanup Program activity (VC974387-01).

To assist the reader in obtaining an understanding of the report, key terms are defined below:

       Claimed Costs:                  Program outlays identified by the State on the Financial
                                       Status Report (Standard Form 269 or 269A).

       Ineligible                      Costs incurred and claimed contrary to a provision of a law,
       Questioned Costs:               regulation, the Agreement, or other agreement or document
                                       governing expenditure of funds.




                                                 3
4
                                 Results of Audit
Summary of Questioned Costs

    As noted in the following table, we questioned $18,399 in costs claimed under the
    Agreement as ineligible. The questioned costs are detailed in Appendix A.

                                                             Questioned as
                         Category           Claimed Costs      Ineligible

               Personnel Expenses               $2,972,707              $0

               Fringe Benefits                  $1,042,982              $0

               Remaining Direct Costs             $351,092         $18,399

                     Totals                     $4,366,781         $18,399

                     Federal Share (90%)        $3,930,101         $16,559



Regulatory Noncompliance

    We identified two areas of regulatory noncompliance during our examination. The State
    did not: (1) submit timely and complete performance reports as required by the
    Agreement and Federal regulations, and (2) conduct physical inventories of its
    CERCLA-funded property as required by 40 Code of Federal Regulations (CFR)
    35.6335. The areas of noncompliance are as follows:

           Performance Reports Not Submitted Timely: The State’s quarterly
           performance reports did not meet minimum Federal requirements. Specifically,
           the reports were incomplete and not consistently submitted when due.

           The provisions of 40 CFR 35.6650 required the State to submit quarterly progress
           reports within 30 days of the end of each Federal fiscal quarter. This regulation
           also specified that the State’s quarterly progress reports contain specific data,
           including:

           •   An explanation of work accomplished during the reporting period along with
               a description of corrective measures for any delays or problems.
           •   A comparison of the percentage of project completion to the project schedule
               and an explanation of significant discrepancies.
           •   A comparison of the estimated funds spent to date to planned expenditures
               and an explanation of significant discrepancies.
           •   An estimate of the time and funds needed to complete the work required in the
               Agreement and a justification for any increase.



                                            5
During the period covered by our audit, the State submitted 19 of the 20 quarterly
progress reports that were due. However, only two of those reports were
submitted timely. Further, four were not dated and thus could not be reviewed for
timeliness. For the remaining 13 quarterly progress reports, the State submitted
the reports an average of 54 days late, with a range of 2 to 238 days late. Also,
the 19 quarterly progress reports were incomplete, since they did not include the
requisite financial data outlined above.

As a result, Region 4 did not have sufficient information to make an assessment
of the State’s progress in meeting the Agreement’s objectives, or determine
whether the unexpended funds were adequate to complete all work required.

   State Comments

   The State has developed new procedures within the Hazardous Waste
   Management Branch to ensure timely submission of quarterly progress
   reports. The State now consolidates the quarterly progress reports with the
   requisite financial information.

   Auditor’s Response

   We discussed this issue with the project officer responsible for the subject
   agreement. The State has submitted one satisfactory progress report since the
   issuance of the draft report. We withhold acceptance of the new procedures
   pending consistency in the timeliness and completeness in the State’s
   submission of quarterly progress reports.

CERCLA-Funded Assets Were Not Inventoried: The State did not conduct
biennial physical inventories of its CERCLA-purchased assets as required by
EPA regulations. To ensure that property is properly accounted for, the
provisions of 40 CFR 35.6335 required the State to conduct a physical inventory
of CERCLA funded-property at least every 2 years and to reconcile the inventory
to equipment records. The State did not conduct the required inventories or
reconciliations. Consequently, the State may not be able to account for and locate
all equipment purchased with EPA funds.

   State Comments

   The State did not comment on this finding.




                                 6
                       Recommendations
We recommend that EPA Region 4:

1.    Recover the Federal share questioned of $16,559.

2.    Continue to monitor the State’s submission of quarterly progress reports to ensure
      that their new procedures are adequate to fully comply with the requirements of
      40 CFR 35.6650.

3.    Require that the State to: (a) complete a physical inventory of its CERCLA-
      purchased assets and reconcile the inventory to the equipment records, and
      (2) develop written procedures to ensure that the required bi-annual inventories
      are completed in compliance with provisions of 40 CFR 35.6335.




                                       7
8
                                                                                    Appendix A

                  Details of Results of Audit
          (Assistance Agreement No. VC984299-98)

                     Category               Claimed Costs       Questioned
                      (FSR)                     (FSR)            Ineligible       Note

          Personnel Expenses                     $2,972,707                 $0

          Fringe Benefits                        $1,042,982                 $0

          Travel                                     $66,394                $0

          Equipment                                  $50,071             $428      1

          Supplies                                   $17,018                $0

          Contractual                                 $2,868                $0

          Other                                     $214,741          $17,971      2

          Indirect Costs                                  $0                $0

             Total                               $4,366,781           $18,399

             Federal Share (90%)                 $3,930,101           $16,559




Note 1:       We questioned claimed equipment costs of $428 as ineligible. In April 1999, the
              State submitted a purchase order for a computer to run its Geographic Information
              System. The purchase order listed the cost for this computer as $9,316. In June
              1999, the purchasing office amended the request to reflect actual costs of $8,888,
              or a difference of $428. The State recorded and claimed the purchase at the
              requested price of $9,316 instead of the actual price of $8,888. Therefore, we
              questioned the $428 difference as ineligible.

                   State Comments

                   The State indicated that it had no comments on this finding.

Note 2:       We questioned claimed equipment rental costs of $17,971 as ineligible. The State
              leased a high capacity copier for 3 years beginning August 2001. The annual lease
              was $21,565, or $1,797 per month. For fiscal 2001 and 2002 combined, the State
              claimed a total of $43,130, or $21,565 per year, in rental expenses for the subject
              copier. Thus, during fiscal 2001, the State claimed 12 months of rent even though
              the copier had been in place only 2 months. Neither the Agreement nor any of its
              amendments allowed the State to claim advance payments; the State was
                                                9
limited to claiming reimbursement of incurred costs. Since the copier had only
been in use for 2 months, the State should only have claimed $3,594 ($1,797 per
month for 2 months) for fiscal 2001 instead of $21,565. Accordingly, we have
questioned the $17,971 difference ($21,565 minus $3,594) as ineligible.

   State Comments

   The State indicated that it had no comments on this finding.




                                10
                                                                                  Appendix B

                          Scope and Methodology

We performed our examination in accordance with the Government Auditing Standards, issued by
the Comptroller General of the United States, and the attestation standards established by the
American Institute of Certified Public Accountants. We also followed the guidelines and
procedures established in the Office of Inspector General Audit Process Handbook dated
November 5, 2002.

We conducted this examination to express an opinion on the claim, and determine whether the
State was managing its EPA assistance agreement in accordance with applicable requirements.
To meet these objectives, we asked the following questions:

       1.     Is the State’s accounting system adequate to account for assistance agreement
              funds in accordance 40 CFR 35.6279?

       2.     Does the State maintain an adequate labor distribution system that conforms with
              requirements of Office of Management and Budget (OMB) Circular A-87?

       3.     Is the State properly drawing down assistance agreement funds in accordance with
              40 CFR 31.21?

       4.     Is the State complying with its reporting requirements under 40 CFR 31.41 and
              35.6650?

       5.     Are the costs claimed/incurred under the Agreement adequately supported and
              eligible for reimbursement under the terms and conditions of the Agreement, OMB
              Circular A-87, and applicable regulations?

       6.     Is the State meeting its matching or cost sharing requirements under 40 CFR
              35.6235?

In conducting our examination, we reviewed the project files and obtained the necessary
assistance agreement information for our examination. We interviewed the project officer and the
grants specialist to determine whether they had any concerns that needed to be addressed during
our examination. We also interviewed State personnel to obtain an understanding of the
accounting system and the applicable internal controls. We obtained and reviewed the single
audit reports, and a previous Office of Inspector General interim audit report (E5BGL4-04-0097-
4100496) dated August 22, 1994, to determine whether there were any reportable conditions and
recommendations addressed in those reports.

We reviewed management’s internal controls and procedures specifically related to our
objectives. Our examination included reviewing the State’s compliance with OMB Circular

                                              11
A-87; Title 31 CFR Part 205; Title 40 CFR Part 31; Resource Management Directive 2540,
Chapter 5; Treasury Manual, Chapter 6, Section 2075.30; and the terms and conditions of the
assistance agreement. We also examined the claimed costs on a test basis to determine whether
the costs were adequately supported and eligible for reimbursement under the terms and
conditions of the assistance agreement, OMB Circular A-87, and applicable regulations. We
conducted our field work from January 27, 2003, to March 28, 2003.

After gaining an understanding of the State’s financial management system, we reconciled the
claimed costs with the State’s general ledger. Based on our judgment, we reviewed selected
transactions for allowableness. For personnel and fringe benefits, we reviewed costs for January,
February, and March of 2002. For all other direct costs, we tested transactions on a judgmental
basis, and selected at least one transaction from each of the 5 years covered by this examination.
In total, we tested 9.4 percent of the claimed costs.




                                                12
                                                                                                                            Appendix C

                                       State Response

                                                   Georgia Department of Natural Resources
                                                   2 Martin Luther King, Jr. Dr., S.E., East Floyd Tower, Atlanta, Georgia 30334
                                                                                                          Lonice C. Barrett, Commissioner
                                                                                                         Environmental Protection Division
                                                                                                                Harold F. Reheis, Director
                                                                                                           David Word, Assistant Director
                                                                                                                             404/656-4713


                                                 June 12, 2003

Mr. Michael A. Rickey, Director
Assistance Agreement Audits
Office of Inspector General
U.S. Environmental Protection Agency
Washington, D.C. 20460
SUBJECT:             Draft Audit Report of Costs Claimed by Georgia Department of Natural
                     Resources Under EPA Assistance Agreement No. VC984299-98
Dear Mr. Rickey:
           We appreciate the opportunity to comment on the draft audit report prepared by your
staff. It was a pleasure to work with Mr. Kelly Bonnette and Mr. Robert Evans on this project.
         In the Results of Audit, there are two areas addressed, questioned costs and regulatory
noncompliance. A total of $18,399 was questioned as ineligible and $1,266 as unsupported.
There are no comments on the “questioned as ineligible” costs. Additional documentation to
support $2,560.29 in claimed lodging costs for the period reviewed has already been provided
to the audit team. Therefore, the $1,266 in "questioned as unsupported" costs in the travel
category should be removed.
         Two areas of regulatory noncompliance were noted in the draft report. Although there is
no way to correct past submittals, a new procedure has already been established in the
Hazardous Waste Management Branch to ensure timely submittals of all components of
quarterly progress reports required by the grant. It should be noted that financial information
was submitted separately from programmatic information directly to EPA Program staff for many
of the quarters in the audit review period. This has now been consolidated into a single report
to avoid any future confusion. There are no additional comments on the regulatory
noncompliance issues.

        We understand that the report will now be finalized and recommendations added.
Region IV will then determine any further course of action on the audit recommendations.
Please contact Verona Barnes at 404/656-7802 if you have any questions about these
comments.
                                                 Sincerely,


                                                 Harold F. Reheis, Director
                                                 Environmental Protection Division
HFR:vb
cc:    Aubrey Hendrix
       Rehnee Dyer
       Jennifer Kaduck
       Bill Mundy
S:\RDRIVE\GRANTS\CERCLA Core\AuditComments.doc




                                                     13
14
                                                                                      Appendix D

                                     Distribution

Region 4

      Assistant Regional Administrator for the Office of Policy and Management,
      Region 4 (Action Official) (Responsible for report distribution to recipient)
      Audit Liaison

Headquarters

      Director, Grants Administration Division (3903R)
      Agency Audit Followup Coordinator
      Associate Administrator for Congressional and Intergovernmental Relations
             (1301A)
      Associate Administrator for Communications, Education, and Media Relations
             (1101A)

Office of Inspector General

      Inspector General (2410)




                                               15
